<html>
<title> - HOW INNOVATIVE EDUCATION SYSTEMS BETTER PREPARE STUDENTS TO ENTER THE WORKFORCE (PART 2)</title>
<body><pre>[Senate Hearing 114-256]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 114-256

                HOW INNOVATIVE EDUCATION SYSTEMS BETTER
            PREPARE STUDENTS TO ENTER THE WORKFORCE (PART 2)

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                          AND ENTREPRENEURSHIP
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 20, 2015

                               __________

    Printed for the Committee on Small Business and Entrepreneurship
    
    
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    


         Available via the World Wide Web: http://www.fdsys.gov
         
         
                               ____________
                               
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE
97-515 PDF                      WASHINGTON : 2016                         
            
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7c1b0c133c1f090f081419100c521f131152">[email&#160;protected]</a>  
           
            
            
            
            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP

                    ONE HUNDRED FOURTEENTH CONGRESS

                              ----------                              
                   DAVID VITTER, Louisiana, Chairman
              BENJAMIN L. CARDIN, Maryland, Ranking Member
JAMES E. RISCH, Idaho                MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 JEANNE SHAHEEN, New Hampshire
RAND PAUL, Kentucky                  HEIDI HEITKAMP, North Dakota
TIM SCOTT, South Carolina            EDWARD J. MARKEY, Massachusetts
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
JONI ERNST, Iowa                     MAZIE K. HIRONO, Hawaii
KELLY AYOTTE, New Hampshire          GARY C. PETERS, Michigan
MICHAEL B. ENZI, Wyoming
                  Zak Baig, Republican Staff Director
                 Ann Jacobs, Democratic Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              

                           Opening Statements

                                                                   Page

Vitter, Hon. David, Chairman, and a U.S. Senator from Louisiana..     1

                               Witnesses

Statement of Barbara Hanson, Chancellor, Louisiana Delta 
  Community College..............................................     5
Statement of John Jones, Vice President of Policy and Federal 
  Legislative Affairs, CenturyLink...............................     8
Statement of Dana Talley, Network 2 Deputy Leader, Louisiana 
  Department of Education........................................    15
Statement of Nick Bruno, President, University of Louisiana at 
  Monroe.........................................................    21

          Alphabetical Listing and Appendix Material Submitted

Hanson, Barbara
    Testimony....................................................     5
    Prepared statement...........................................     7
Jones, John
    Testimony....................................................     8
    Prepared statement...........................................    10
Talley, Dana
    Testimony....................................................    15
    Prepared statement...........................................    17
Bruno, Nick
    Testimony....................................................    21
    Prepared statement...........................................    25
Vitter, Hon. David
    Opening statement............................................     1
    Prepared statement...........................................     3

 
                    HOW INNOVATIVE EDUCATION SYSTEMS
        BETTER PREPARE STUDENTS TO ENTER THE WORKFORCE (PART 2)

                              ----------                              


                       FRIDAY, FEBRUARY 20, 2015

                      United States Senate,
                        Committee on Small Business
                                      and Entrepreneurship,
                                                        Monroe, LA.
    The Committee met, pursuant to notice, at 10:24 a.m., at 
Delta Community College, 7500 Millhaven Rd., Hon. David Vitter, 
Chairman of the Committee, presiding.
    Present: Senator Vitter.
    Also present: Representative Abraham.

 OPENING STATEMENT OF HON. DAVID VITTER, CHAIRMAN, AND A U.S. 
                     SENATOR FROM LOUISIANA

    Chairman Vitter. Let's now go to the Senate Small Business 
Committee field hearing portion of the program, and that's 
entitled ``How Innovative Education Systems Can Better Prepare 
Students to Enter the Workforce.''
    I have some opening comments with slides, and then I'm 
going to introduce our witnesses today.
    You know, the exciting thing is there is really good 
economic development and jobs coming to Louisiana. In a lot of 
instances, the American energy boom, cheap American energy, 
because of great entities in this part of the State like 
CenturyLink and their new partnership with IBM, the Cyber 
Innovation Center down I-20 in Bossier. Some great jobs are 
coming this way.
    But we need to link up those jobs with the skill sets folks 
need to fill them and to prosper. Right now, Louisiana's 
workforce is about 2.3 million working adults. Over 1 million 
of these have not obtained a college degree or a post-secondary 
credential, and another 600,000 don't have a high school 
diploma. And today's industries rely very heavily on skills, 
technology, so those folks are just going to be left in the 
lurch unless we connect those dots and get them that training.
    Now, here in Louisiana we have taken several positive 
steps. Our high school students now have greater access to 
career courses, the Jump Start program. Ralph mentioned that a 
minute ago. That's positive to highlight at the high school 
level that good careers are available through skills training, 
but we need to go further and really put that on steroids.
    A lot of the problem is at the federal level where Ralph 
and I work. Too many federal programs are really antiquated and 
don't allow for flexibility and for access to skills training. 
We talked about Pell Grants. That's for traditional four-year 
higher ed. That's great if you want and need traditional four-
year higher ed. It's not if you want skills training and want 
to go into those sorts of jobs here in Louisiana or elsewhere.
    So that's what we're talking about here today, where we 
are, particularly in Louisiana, how we get to a better place. 
And to help us in that dialogue we have four really great 
witnesses. Three are here; one is on the way. I'm going to 
introduce all four of them now, and then in the order I 
introduced them they will each give a short, five-minute 
presentation, and then we'll have a dialogue about all of these 
thoughts.
    First, Dr. Barbara Hanson. She served as Chancellor of 
Louisiana Delta Community College since January 2013, but she 
has over 29 years of higher ed experience, with 17 years in 
community college administration, and that includes serving as 
Chief Academic Officer, Executive Director for Program 
Development, and Dean of Instruction.
    Thank you in particular, Barbara, for helping host us here 
today.
    Next will be John Jones. John is Vice President for Public 
and Federal Legislative Affairs for CenturyLink, and he's been 
a very active participant in several significant federal and 
state telecomm reform initiatives. Prior to joining 
CenturyLink, John served as Public Affairs Director and adjunct 
communications faculty member for the university for 12 years, 
and he was recently appointed by Governor Jindal to the 
Louisiana Workforce Investment Council.
    Next will be Dana Talley, who serves as Deputy Leader for 
Network 2 in the Louisiana Department of Education. Ms. Talley 
is part of the team that works with local school districts to 
implement initiatives in the areas of high school programs, 
including Jump Start, Early Childhood, District Planning, 
Principal Support, and Teacher Leaders.
    And finally is Dr. Nick Bruno, who is caught in some 
traffic and is on the way. Dr. Bruno became the eighth 
President of the University of Louisiana at Monroe in 2010 and 
has more than 35 years of work in Louisiana higher education. 
In 2012, President Bruno was appointed to the West Monroe-West 
Ouachita Chamber of Commerce Board of Directors, the Monroe 
Chamber of Commerce Board of Directors, and the St. Francis 
Medical Center Board of Directors. So he is obviously involved 
in many of these issues in the community.
    Thanks to all of you for being part of this program. We 
look forward to your testimony. We look forward to follow-up on 
that, and we'll start with Dr. Hanson.
    [The prepared statement of Chairman Vitter follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
   STATEMENT OF BARBARA HANSON, CHANCELLOR, LOUISIANA DELTA 
                       COMMUNITY COLLEGE

    Dr. Hanson. Good morning, everyone. Thank you so much for 
the opportunity to be here today.
    This is my first time doing this, so I'm not exactly sure 
if I'm supposed to read my statement or read----
    Chairman Vitter. What you're comfortable with.
    Dr. Hanson. Excellent. I wanted to start with a quote, and 
that is kind of what I had in my statement. It goes like this: 
``This is a critical time in our economic history. Those who do 
demographics are projecting severe shortages in skilled workers 
in the next 10 years. While the skills gap will be in crisis, 
the lack of basic skills, technical skills and competencies is 
an issue for industry right now. To meet this challenge, we 
need to invest in worker education and training. Now is the 
time to take a more strategic approach to workforce education 
and training and create seamless, dynamic, and sufficiently 
funded systems for advancing the skills and credentials and 
productivity of our entire workforce.''
    What is most interesting about this quote is that it was 
written in 2003. It was produced in a document called the 
National Center on Education and the Economy.
    Although we have made great strides over the last 10 years 
as a Nation, we still are experiencing that skills gap that is 
referenced in this quote that took place almost 10 years ago. 
Our inability as a Nation and as this great State that we live 
in, in Louisiana, not to address--our inability to address the 
needs of our workforce will cripple us, and it continues to 
bring us down.
    What we have in the State of Louisiana is not a budget 
problem. It is a revenue problem, and the solution to that 
problem is to provide the training for people to go to work. 
That is what we need. Those people who go to work live in 
communities. They contribute to the tax base. They worship in 
their place of worship. They go to the grocery store. They buy 
homes. They raise their families. And they enjoy the economic 
prosperity that this great State and this great country wants 
for each citizen in our country.
    We need to continue to provide workforce and educational 
training opportunities to all of our constituents so that each 
and every one can realize the dream that should be theirs.
    Louisiana in particular I feel has made great strides over 
the last couple of years. You've heard mention of the Jump 
Start program. That is an excellent initiative. You've heard 
mention of the WISE program. That is also an excellent 
initiative. It really started, in my mind, with the Louisiana 
Economic Development Division, when they reached out and did 
their statistical analysis and projected what business and 
industry is going to need in the next 10 years in this State.
    Jump Start was aligned to help prepare students in high 
schools to meet those needs. The WISE Fund was enacted whereby 
institutions of higher education to include all four systems 
could apply for money, and the money that they applied for had 
to be in alignment with what was the projected needs in this 
State, and it was incentivized for business and industries. 
There was an incentive of a 20 percent match that needed to 
come from business and industry so that we could all work 
together.
    In my mind, the solution is our ability to collaborate, to 
think differently, and to take this great State and what made 
this Nation great, which is the middle class, to the next level 
and let them achieve the prosperity that they deserve, and to 
do it through the engine of education.
    [The prepared statement of Dr. Hanson follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Vitter. Thank you very much, Dr. Hanson, and thank 
you again for hosting us here at Delta Community College.
    Next is John Jones with CenturyLink.

 STATEMENT OF JOHN JONES, VICE PRESIDENT OF POLICY AND FEDERAL 
                LEGISLATIVE AFFAIRS, CENTURYLINK

    Mr. Jones. First, Senator Vitter and Representative 
Abraham, thank you so much for hosting this. This is a very 
timely topic for our company and for this area. While we're 
talking today, there have already been numerous discussions 
like this down in Baton Rouge that we've already participated 
in. So, thanks so much for bringing it to north Louisiana.
    For the record, I'm going to go ahead and read my statement 
within five minutes.
    Good morning, Mr. Chairman and fellow participants. We 
appreciate your interest and leadership in calling today's 
hearing addressing innovation, education, and workforce 
development preparation. We believe much good work has already 
been done in this area. However, with the rapidly changing 
economic and employment environment of our State and the rest 
of the Nation, we believe more work remains to be done to 
achieve greater alignment between education and the business 
community. My role here today is to discuss the workforce 
development challenges and opportunities we face as a 
telecommunications provider headquartered in Louisiana as it 
relates to education.
    CenturyLink is the third largest telecommunications company 
in America today. We operate one of the largest communications 
networks in the United States and provide high-speed Internet, 
data, voice, managed cloud, and IT hosting and entertainment to 
more than 13 million customers in all 50 states and overseas. 
We employ approximately 45,000 people worldwide, the majority 
of them with technical, service-oriented backgrounds, along 
with hundreds of others in supporting non-technical fields.
    We are in the process of finalizing the construction of a 
250,000-square-foot technology center on our campus that will 
open this spring. The building will provide state-of-the-art 
network monitoring, research and development, and IT and 
engineering support to our service footprint.
    As most of you know, we have agreed to increase our total 
jobs in Monroe by 800 positions within the next several years. 
We are moving forward with that commitment, but we do face some 
challenges in filling some of those positions, one being 
finding and attracting more senior-level technology-trained and 
other professional employees to Louisiana and north Louisiana; 
and the second being competing with larger markets in our State 
and elsewhere for college graduates with the skill sets we 
need.
    We spoke with David, Senator Vitter yesterday about this 
challenge at length. We have made significant inroads in 
exploring partnership opportunities in Northeast Louisiana with 
ULM, Louisiana Tech, and Delta Community College; and within 
the past year we have also met with the faculties of Grambling, 
LSU, Southeastern and Northwestern Universities.
    Each meeting has been a learning experience for both 
parties in terms of gaining a betting understanding of 
curriculum needs, as well as our potential job availability for 
graduates. These discussions have been invaluable for 
identifying both resources and opportunities. Ultimately, the 
students will be the net winners of these discussions, and they 
will benefit from enhanced curriculum development that 
translates into actual job opportunities or possibilities in 
our State.
    Going forward, we see our company, and also our vendors 
like IBM, as serving in an advisory role with the universities, 
and also our K-12 partners in discussing creative partnerships 
and curriculums that will work.
    A recent example of a partnership opportunity was this 
week, and that's the announcement by IBM and the State of 
Louisiana and our company earlier this week. The IBM center in 
Monroe represents a transformational partnership, and I 
encourage you to watch this carefully as it unfolds. That will 
include expanded higher education programs related to computer 
science, as well as create new economic growth opportunities in 
this area. The IBM center will employ a broad range of college 
graduates and experienced professionals with backgrounds in 
computer science, engineering, mathematics, and science. And 
that all sounds very technical, but you also have to realize 
the support functions that will pop up around that entity, and 
also on the 88 acres that we're developing across the road that 
will require skilled labor.
    The State of Louisiana is providing $4.5 million in funding 
over 10 years to expand key higher education programs, 
including the computer science program at ULM, the cyber 
engineering program at Louisiana Tech, and the data analytics 
program at Grambling State. Additionally, IBM will work closely 
with local professors to recommend curriculum innovations 
focused on technology, math, and the sciences.
    In conclusion, I will leave you with three thoughts.
    We believe that finding additional ways to improve the 
communication and alignment between the business community and 
our colleges and universities will foster additional 
partnerships and curriculums aligned with good jobs. This 
approach will benefit small businesses as well as larger 
companies.
    We should also focus on meaningful education reform in our 
elementary and secondary education schools and curriculums. We 
would like to see additional development of STEM programs and 
integration and alignment of K-12 and higher education 
programs.
    Louisiana, and in particular the I-20 Corridor, have great 
potential to embrace technology as a key economic development 
driver. If our State is going to move forward with a high-tech 
economy, we must begin focusing our education goals towards 
math and the sciences today. This will also foster more skilled 
labor employment.
    Lastly, let's not forget North Louisiana. The colleges and 
universities in this area have provided education for literally 
thousands of students who possibly could not have gotten those 
degrees because of distance and cost, and these universities 
are strategically located and help thousands of people get 
their education. We are hopeful that funding for our local 
colleges will be restored and meet the workforce needs of our 
State and overcome the negative outside perception of education 
our State experiences today.
    Thank you, and I'll be glad to take questions.
    [The prepared statement of Mr. Jones follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Vitter. Thank you very much, John. I appreciate 
it.
    Next is Dana Talley from the Louisiana Department of 
Education.

 STATEMENT OF DANA TALLEY, NETWORK 2 DEPUTY LEADER, LOUISIANA 
                    DEPARTMENT OF EDUCATION

    Ms. Talley. I would like to thank Senator Vitter and 
Representative Abraham for the opportunity to speak to all of 
you about Jump Start today.
    The greatest factor in both the growth of our State's 
economy and the ability of our high school graduates to become 
productive citizens will be the skills with which young people 
are equipped. While most jobs do not require a four-year 
college degree, high-growth high-wage jobs in Louisiana almost 
always require education after high school.
    Today, Louisiana students complete either a TOPS University 
or Jump Start TOPS Tech graduation pathway. The two diploma 
pathways ensure ninth and tenth grade students focus on 
mastering a set of foundational academic skills in core 
subjects. This provides students with the opportunity to 
explore and discover their true interests, rather than forcing 
them to commit to a single graduation path too early in high 
school.
    During the eleventh and twelfth grades, students will 
develop basic and advanced college and workplace skills that 
will prepare them for college and career success and ensure 
they are competitive in any workplace or academic environment.
    Jump Start is Louisiana's new program to provide career 
courses and workplace experiences to high school students. 
Regional Jump Start teams comprised of school districts, higher 
education, the State Economic Development and Workforce 
Commission, and business and industry are formed to identify 
appropriate career and credentialing opportunities for high 
school students. These regional Jump Start teams develop and/or 
adopt pathways that outline career courses, workplace 
experiences, and industry-based credentials in career fields 
most likely to lead to high-wage jobs. The pathways developed 
and/or adopted by each regional Jump Start team are specific to 
the workforce needs in that region of the State.
    Examples of Jump Start pathways this region will be 
offering include the following, and there are actually about 16 
total, but I'm going to give you just examples of three. One is 
Health Sciences Patient Care Management. This can lead to an 
industry-based credential in Certified Nurse Aid, Emergency 
Medical Responder, or Emergency Medical Technician basic.
    There's also Hospitality, Tourism, Culinary and Retail. 
This can lead to an industry-based credential in Certified 
Hospitality and Tourism Management Level II, Customer Service, 
or ServSafe.
    Also, there's Agriculture Tech, which can lead to an 
industry-based credential in NCCER Level 1 or 2 in Carpentry, 
Electrical, or Welding, for example.
    Louisiana's Course Choice Program, referred to as Course 
Access in other parts of the country, enables Louisiana 
families and students to select from hundreds of online and 
face-to-face courses not traditionally offered by high schools 
and middle schools. Course Access makes sure that all students 
have access to the courses they need to succeed in college and 
career pathways.
    Through Course Access, students can gain access to dual-
enrollment courses offered at the State's four-year 
universities and career courses through private training 
providers and the Louisiana Community and Technical College 
System. Students now have access to foreign language courses, 
career and technical education courses culminating in industry-
valued certification, Advanced Placement and TOPS-aligned 
college courses, ACT prep courses to increase chances of 
qualifying for a State scholarship, and math courses using Khan 
Academy. All of these can be difficult to staff and offer in 
rural areas but are now available to all students in all public 
schools around our State.
    Jump Start regional teams, the Department of Education, 
Louisiana Economic Development, and the Louisiana Workforce 
Commission continue in their work to create a variety of 
graduation pathways, each with industry-valued credentials 
attainable by all Louisiana high school students on their way 
to on-time graduation. This includes specific pathways 
developed for and accessible to students who have typically 
struggled, as well as certain students with disabilities when 
determined appropriate by their IEP teams.
    In order to extend these same opportunities for these 
students, the Jump Start programs have been scaffolded to 
identify multiple credentials that students may pursue based on 
their interests and abilities. For example, some students may 
be interested in and able to complete the series of courses and 
training needed to be a welder and achieve an NCCER industry 
credential. Other students may not be able to complete the 
welder curriculum, but can achieve a welder's helper 
credential. Both provide economic opportunity for students and 
are aligned to our State's workforce needs.
    No other state's education department has partnered so 
closely with school districts, higher education, state 
agencies, and business and industry to identify appropriate 
career and credentialing opportunities for high school 
students. Jump Start regional teams develop and submit proposed 
graduation pathways to a multi-agency review panel which 
consists of members from Louisiana Department of Economic 
Development, Louisiana Workforce Commission, and the Louisiana 
Department of Education. This panel collaborates with the 
regional teams to ensure that course offerings in a pathway are 
relevant, that credentials are relevant and rigorous, and that 
sample schedules provide appropriate guidance to school 
counselors and educators.
    The decision to approve proposed Jump Start pathways is 
driven not by state or local education bureaucrats but by 
business and industry, which certifies that the pathway is 
indeed responsive to the needs of our State's employers and 
economy. If the proposal does not meet the mark, the panel 
provides valuable feedback on how to adjust the proposal to 
make it meaningful and relevant.
    I hope the innovative partnerships I have described show 
just how much is possible when we begin with the end in mind, 
when we prioritize the needs of our students and our State, and 
when we admit that we as educators cannot do it alone. Thank 
you for the opportunity to share this exciting work with you 
today.
    [The prepared statement of Ms. Talley follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Vitter. Thank you very much, Dana.
    And now our final witness, Dr. Nick Bruno, President of 
ULM.
    Dr. Bruno, I explained you were hung up in traffic, and 
I've already provided a glowing 33-minute introduction of you.
    [Laughter.]
    So it's all teed up.

STATEMENT OF NICK BRUNO, PRESIDENT, UNIVERSITY OF LOUISIANA AT 
                             MONROE

    Dr. Bruno. Thank you, Senator and Congressman Abraham. 
Thank you for allowing me to participate.
    I want to thank Senator Vitter for the opportunity to 
address the very important topic of higher education and the 
challenges and opportunities we face as we work toward 
facilitating and advancing innovation within our institution. 
Innovation and focus are critical in preparing our students for 
the workforce.
    The current workforce needs in Louisiana are very diverse. 
We continue to have considerable necessity for a significant 
blue collar workforce, but that workforce requires different 
skills and technology from their predecessors.
    The reliance on technology in all applications requires 
training at a higher level. These jobs, such as process 
technology, are intensive and comprehensive training programs 
that provide not only the skills to operate in a modern plant 
environment but also facilitate these jobs with a greater 
understanding of the processes.
    Our community and technical colleges are doing well in the 
preparation of this workforce and in helping to fill the demand 
for trained professionals. In addition, they are preparing many 
of those students for the opportunity to earn a four-year 
degree.
    Louisiana's workforce is evolving and becoming more 
technology based. With companies such as IBM, CSC and 
CenturyLink operating in Louisiana, the need for more workers 
with training in STEM-based degrees is growing faster than the 
universities' ability to produce these graduates, but we 
continue to work toward finding students who are well-suited 
and better prepared for entrance into these fields.
    In addition, the need for health science professionals will 
continue to grow as a result of our aging Baby Boomers who are 
nearing retirement. This is also a very important issue related 
to quality of life for companies as they choose where to 
locate. These trends are not limited to Louisiana and are seen 
across the country.
    Student well-being and support are important to both 
recruitment and retention. As state support for higher 
education decreases across the country, students bear a greater 
proportion of the costs for their college degrees, which is 
resulting in higher debt burden. We are confident that 
continued conversations about lowering interest rates for these 
loans will provide incentives for students to earn post-
secondary credentials and reduce the economic burden they face 
later in life, and this burden is felt by both traditional and 
non-traditional students.
    Non-traditional workers provide a significant source of 
potential students for all of higher education and to assist in 
building our skilled workforce. In order to tap into that pool 
of potential students, institutions must alter what has been a 
delivery model focused upon students of traditional age.
    Institutions should understand that non-traditional 
students bring with them many life experiences which add value 
to their classroom instruction. Universities will need to look 
more closely and adopt effective systems of granting credit for 
both the life and work experiences non-traditional students 
have gained through their careers.
    Another issue is that of convenience. Non-traditional 
students usually work or maintain households and families. 
Providing classes at times convenient to these students is 
critical in maximizing their attendance and success. For 
example, online instruction provides this convenience. At ULM 
we have redesigned our online offerings by creating a separate 
division referred to as eULM.
    eULM provides eight-week modules which allow students to 
opt in and out as they wish. It also provides a more expedient 
path to completion. We offer 36 online degree programs ranging 
from associate to doctoral level degrees. ULM has also 
initiated several post-baccalaureate certificates which provide 
individuals, generally non-traditional, the opportunity to 
certify in high-demand fields such as accounting, computer 
information systems, and financial analytics.
    Finally, faculty must be made aware of the sensitivities of 
the non-traditional student. These sensitivities include work 
and family demands that are not as prevalent for most 
traditional college students, and we try to provide services--
like the child development center; a full-time student advocate 
and retention coordinator to help students resolve problems 
with university procedures and policies; and four full-time 
academic advisors for online students--that help our non-
traditional students advance in their coursework while 
maintaining full-time careers and families.
    At ULM, our community partnerships are also important to 
the sustainability of our university. We have been very 
aggressive in developing collaborative agreements with local 
businesses, as well as educational partners like Louisiana 
Delta Community College. ULM's business partners include Chase, 
CenturyLink, Angus Chemical, area hospitals and clinics, and 
school systems, to name a few.
    In these partnerships, we become more aware of the needs 
they have for the graduates we produce. To ensure our graduates 
are prepared, we work with our partners to adjust curricula, 
co-sponsor pertinent and timely symposia, and pursue research 
in areas which will have broad-based benefit for our students, 
who will hopefully become their employees.
    Together with Arkansas State University, ULM has been 
contracted by the Delta Regional Authority to operate a 
leadership institute in the lower Mississippi River Delta. In 
fact, the Louisiana Delta community is also a partner in that 
grant. The program trains community leaders and develops their 
skills to face the global challenges of the 21st century.
    We are also currently working with JPMorgan Chase to 
develop a post-baccalaureate program in mortgage analytics that 
will help their employees use data more effectively. We have 
also partnered with JPMorgan Chase and United Way to develop a 
high school financial literacy program that has been taught to 
thousands of high school sophomores throughout the region.
    ULM faculty have visited local high schools to deliver the 
training and have developed an online version of the program as 
well. In addition to basic financial literacy concepts, the 
program emphasizes the importance of education and preparation 
for good paying jobs. The program has exposed students to 
careers in business, an area that has many in-demand career 
opportunities in Louisiana.
    ULM faculty and staff worked closely with CenturyLink to 
develop two innovative post-baccalaureate certificate programs 
to help meet CenturyLink's workforce needs in accounting and 
computer information systems. ULM and CenturyLink collaborated 
to define the curriculum that would prepare existing 
CenturyLink employees to move into high-demand positions. 
Classes are offered onsite at CenturyLink, and the Workforce 
Commission has provided funding to support those programs.
    Our Office of Continuing Education provides courses for 
area dentists and dental hygienists, and numerous certification 
programs also are available in areas such as diabetic wound 
care, phlebotomy, and certified nurse assistance.
    ULM has also developed degree programs focused on the use 
of unmanned aerial systems in the field of precision 
agriculture. A regional Center of Excellence was also 
established and has received its first external funding grant--
I thank the Senator for his assistance with that--from the 
Delta Regional Authority. It will help train farmers in the use 
of unmanned aerial vehicles and the data they collect.
    ULM partnered with a local farmer to pilot the application 
of ULM's UAS drone in precision agriculture. The ULM drone has 
been flown over farmland throughout the growing season, 
capturing images that have led to decisions regarding 
application of fertilizer, chemicals, and water. Through this 
partnership, ULM anticipates enhancing its ability to capture 
data through the use of drones, but more importantly, develop 
expertise in data management including data representation, 
analysis, and interpretation.
    We continue to develop courses and curricula based on the 
use of unmanned aircraft and await the establishment of Federal 
Aviation Administration policies and procedures which will 
allow the developers of intellectual property to proceed within 
federal laws. Innovation is a by-product of the discovery 
process. Most innovation materializes as a result of pursuing 
another discovery. For example, Post-It Notes was invented as a 
result of a failed adhesive product. Regulations regarding 
unmanned aircraft must be formulated and issued in order to 
maximize the opportunities for expansion of innovation. Delays 
in FAA regulations for these programs prohibit universities 
from maximizing the benefits and opportunities these aircraft 
can afford.
    Similar to our UAS program, ULM's innovative outdoor 
Construction Practices Lab simulates a construction site and 
allows students to gain critical hands-on experience managing 
the various aspects associated with construction projects. A 
majority of equipment and supplies for the lab have been 
donated by local and regional construction companies.
    ULM works toward preparing our students for the workforce 
by giving them the connections with community and national 
partners, coupled with the skills needed to be competitive in 
both the classroom and the ever-evolving job market. Our goal 
is to ensure that we provide each student an education they can 
be proud of and that they can use to provide intellectual 
capital to our region and to our State.
    We also, I'm happy to announce, are meeting with a group of 
investors today which will explore the opportunities of 
commercializing several of our patents in the pharmaceutical 
area.
    As you can tell, I am very passionate about higher 
education, especially at ULM. Thank you again for the 
opportunity to provide input to this committee.
    [The prepared statement of Dr. Bruno follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Vitter. Thank you very much, Dr. Bruno.
    And now we're going to continue the conversation, with 
Ralph and I alternating and making comments, asking questions.
    I'll kick it off. And, John, I'll start with you as the 
private-sector guy there, not only from the private sector but 
from a company that just made exciting positive announcements 
with your new IBM partnership and all of your expansion and 
construction.
    Two related questions. First of all, how would you grade 
the responsiveness of institutions here, particularly 
educational institutions, when you go to them and explain the 
exact skill sets you need?
    Number two, what's the conversation like in your boardroom 
or with IBM when this issue of continuing higher ed budget cuts 
and other things comes up?
    Mr. Jones. Sure. To the first question, the discussions 
we've had, not only with higher ed but also K-12, have been 
really kind of exciting in a way. You can see the energy level 
in the room rise as educators start tapping into what we're 
trying to do. And then we're also learning at the same time 
what they're able to provide.
    We've made some great discoveries right in our backyard we 
weren't aware of, so the dialogue is very encouraging. We had 
Northwestern University's president and provost in just this 
week. We don't know that much about Northwestern. It's not that 
far away, but we don't know that much about their programs, and 
they didn't know that much about us, really. They did a little 
homework, but we had about a one-and-a-half-hour conversation 
and found about four different synergies there where we could 
partner in a lot of different ways.
    They had two curriculums we didn't know they offered. One 
was a cyber-forensics curriculum. We're one of the largest 
cyber providers in the country for the government, and they had 
an engineering technology program we did not know they had.
    So that's just an example, and that's been duplicated over 
and over again. We've met with high school principals. We met 
with both superintendents here. Again, the STEM education keeps 
coming up as a focal point.
    Chairman Vitter. Great.
    Mr. Jones. The discussions with IBM you wanted to know more 
about, the reaction to education?
    Chairman Vitter. Yes. I mean, obviously, these days we're 
talking a lot about continuing perspective higher ed cuts, and 
I know that's got to be part of the discussion you have, 
particularly with partners like IBM, and I just wanted some 
flavor of that.
    Mr. Jones. That's really a big issue. The Internet is our 
best friend and our worst enemy. We're recruiting from all over 
the world. Our new strategic executive VP of planning came from 
the Netherlands. So we're recruiting some of the top talent 
that's out there today. They're systems people and network 
people and engineers, and they have a choice of going anywhere 
they want. This individual had been with Samsung that we just 
recruited. So they are very picky about where they bring their 
families.
    So if you're thinking about going to Seattle and you had 
small kids, the first thing you would do is go check on the 
education system, you would check on crime, you would check on 
everything that's out there, and these people are no different. 
So they read about our city council, they read about our school 
boards, they read about the politics and they say, you know, 
I'm not really sure.
    So when IBM comes, as an example, they do the exact same 
thing. And I'll give the Governor's Office credit, they have 
done a great job of recruiting them to Baton Rouge and to here. 
But the way we actually work that is that when we engage with a 
vendor, and IBM will be doing significant business with us--
I'll give Glen Post credit for this--Glen Post asked them to 
put down significant stakes in this community. I think Dr. 
Bruno will testify to that, is that one of those was you will 
partner with the universities here in some capacity.
    So we actually make a request that if they're going to 
service us, then they are going to also walk the walk with us 
as well. That's how we're actually working with our vendors who 
are considering coming here.
    But their perception of education in this State and in this 
area is not good, for lack of a better term. It's not good. So 
we have to overcome that perception. We have to show them their 
opportunities. Once they get here and they see the educational 
opportunities we have here, they see the passion of the 
universities, then they get engaged. But getting them here is 
sometimes a challenge just based on a global perception of 
Louisiana and how it ranks in education.
    Chairman Vitter. Ralph.
    Representative Abraham. First a statement, and I'll use a 
poor analogy, but it goes back to the ISIS question.
    The good news about what we're doing here today is we're 
defining the problem, and once you define the problem, then you 
can work on the problem; unlike, unfortunately, we don't call 
ISIL what it is.
    And what a privilege for me to be among you guys. I think 
we sat down and talked to everybody but Dana. But to get four 
of you talking together, for me it's just huge for my district.
    Two questions, and I'll ask the first one to you, Dr. Nick.
    There is active discussion with Senator Vitter's group in 
the Senate and certainly us in the House about reducing the 
interest on the student loans down to 1 to 2 percent instead of 
6 to 8 percent, where it fluctuates now. Would that help 
immensely in your arena?
    Dr. Bruno. Congressman, certainly it will help those 
students. As tuition increases have been recurring, part of the 
challenge is that with state funds restricted to maintain the 
university's operations at a minimal level, the students are 
being asked to pay more and more of those operating costs. So 
they are forced to take loans, grants. Pell funds have been 
capped, which now ULM tuition exceeds Pell monies. So students 
are forced to borrow money, which puts them in a position of--
at some point you want a student who graduates to get a good 
job and to be able to get a good quality of life. If they are 
saddled with student loans for 20 or 30 years and those rates 
continue to escalate, they will never have the opportunity to 
buy homes or to reach that quality of life they had hoped for 
when they pursued their degrees.
    So, yes. I think--and I will commend him for that effort, I 
think, to minimize those interest rates. But I think the system 
has to be reviewed completely as to--I think we have to do a 
better job counseling those students that you can only borrow 
so much within the field you're in. We have to do a little 
better in giving them financial advice, that if you're majoring 
in certain fields, the amount of money that you're borrowing 
you will never pay back.
    So I think there are some factors that are involved that 
when a student can stay in and borrow $75,000 or $100,000, if 
they're majoring in history or math versus majoring in 
pharmacy, the probability of payback for them is going to be 
significantly different and much more adverse.
    So, yes, I think if we can do that all within the concept 
of some additional financial counseling to help them as it 
relates to student loans and overall debt that they assume 
while they're in the university.
    Representative Abraham. If I might, one more?
    Chairman Vitter. Sure.
    Representative Abraham. Dana, I just have a question.
    Dr. Hanson, do you have a comment?
    Dr. Hanson. Yes. I would just like to also comment. We here 
at Louisiana Delta Community College, we have access to student 
loans as well as Pell Grants. From my perspective, one of the 
things that I hope--and I'm in agreement with the idea of 
having the conversation about lowering the percentage rate. But 
one of the challenges that we face is dealing with the 600,000 
folks in the state of Louisiana who do not have a high school 
credential and who do not have any kind of training whatsoever. 
They do not qualify to apply for those types of student loans 
or for Pell Grants. So any conversations that can be held 
relative to looking at using the Pell Grant in particular, and 
perhaps student loans for short-term training whereby a student 
can prepare themselves and that they're going to go out and get 
a job.
    We were recently awarded the opportunity to provide Sallie 
Mae grants for a non-credit program, and that was a big deal. 
That's not something they usually do, but we had a good 
reputation for the program. It's our area application program. 
Crop dusting, basically, is what it is, and Sallie Mae, after 
much discussion, said yes. Our position was, look, you have 
someone who is coming in, and it goes to what you were saying, 
Nick. You have someone who is coming in who, within a very 
short period of time, will be eligible to go out and earn six 
figures, and we ask you to loan them $50,000; whereas you might 
have someone who is going to spend four years and not get a 
pharmacy degree but get an English degree, and they may or may 
not be able to get immediate employment.
    So that type of consideration in discussions of providing 
funds that support student access would be very beneficial.
    Representative Abraham. Dana, that leaves me the question I 
have for you. Everyone in this room knows that we couldn't 
start our car every morning if it wasn't for the technical 
component of this society, thank God for them. I know it's 
probably early to have actual data, but have you seen an 
attitude in your high school as far as less apt to drop out 
since Jump Start has been started or processed?
    Ms. Talley. I want to start with I think it's going to take 
a little bit of time for us to change the mindset of parents 
and kids about a career diploma, and those in education know 
that. We have to really start with the end in mind of what this 
can do for you.
    What I've heard is, I've heard a lot of parents who are 
educators say to me if only this were available when my kid was 
in high school. So, yes, we don't have any data yet, but I'm 
having districts tell me that they think 40 to 50 percent of 
their kids will end up going the Jump Start route.
    Again, what we're trying to do with the credentials is 
scaffold them so even those kids with disabilities or those 
kids who have struggled will have an opportunity maybe to not 
have a full industry-based credential but to be well on the way 
to the credential when they graduate high school. And if they 
see, if a kid is sitting in high school and sees that in the 
end I'm going to have this credential that's going to help me 
be more marketable to employers, I think that's going to be the 
incentive.
    So I think whether or not this impacts drop-out rates is 
going to be how we frame it to parents and kids.
    Representative Abraham. Okay. Thank you.
    Chairman Vitter. Dr. Hanson, we've been talking about Pell 
Grants. Are there particular requirements under that program 
right now which make it difficult in some circumstances to use 
a Pell Grant here at Delta?
    Dr. Hanson. Over the course of the last few years--and I 
think every institution of higher education has experienced 
it--there has been a limitation relative to how Pell Grants can 
be used. It was imposed, and I think it was probably done as a 
cost-saving measure, and perhaps those who have more in-depth 
knowledge would be better able to respond to the actualities of 
it.
    But right now, you have to be involved in a program, a 
course of study that is so many weeks in length, has so many 
contact hours. You have to be going at least half-time or full-
time. And that's great, except a lot of what we want to be able 
to provide for students is short-term training where there are 
jobs where they can spend 8 weeks, 10 weeks, 12 weeks. They 
could very easily have education in that period of time and go 
out and get a real job making a minimum wage--not a minimum-
wage job, making above minimum wage, a life-earning wage. And 
that is not available right now with the Pell Grants.
    I know last year that Senator Landrieu had put forward a 
bill on the federal level called the Jobs Act bill, and I don't 
remember all of the particulars of it, but in general my 
understanding was that it would provide an opportunity to apply 
for Pell Grants for short-term training, thereby moving around 
some of those particular types of limitations that are put on 
the current Pell Grant.
    Chairman Vitter. Right. For all of you, after Pell Grants 
and student loan rates--those are two obvious categories--what 
else on the federal level is an impediment that we need to 
break down to make this work better?
    Dr. Hanson. In terms of student access?
    Chairman Vitter. In terms of anything that impacts this 
sort of skills training.
    Dr. Hanson. Well, I don't know if it's the federal level. I 
think it's the entire level. It's something that Ms. Dana just 
alluded to. Somewhere along the way, if I may, it's a cultural 
issue. There's a stigma attached to going into career and 
technical education. Somewhere along the way it became a dirty 
word. It was something less than a four-year.
    It is not less than a four-year. It is different than a 
four-year education, and there is a need for both. But 
somewhere along the way in our Nation, we decided that unless 
you're going to get a four-year degree, it's not good. But 
that's not what made our Nation great.
    I heard a speaker a couple of years ago who is the 
president of Snap-On Tools, and he spoke very passionately 
about the fact of what made this country great was those folks 
who went out into the workforce who had skilled jobs, and they 
contributed to the economic well-being of this Nation, and 
that's where we are in Louisiana right now, and that is not to 
say that there is not a need for four-year education. There is.
    We have professional programs that we have to have, such as 
our pharmacy school and our teacher training and things like 
that. But I don't know what the federal government can do in 
terms of trying to change the culture. It is different.
    And I will end with telling you just one little story, if I 
may. It's very short.
    I always think of myself, not to be prideful, but as a 
fairly intelligent person. But I took a mechanical aptitude 
test once, and the gentleman who adjudicated it asked me not to 
walk within 300 feet of a machine.
    [Laughter.]
    My mind just doesn't work that way at all, but someone's 
does, and that's an intelligence that I don't have but they 
have.
    So I think we need to get back to the point where we 
recognize that there are many, many different intelligences, 
and to help people understand that there's not ``better than.'' 
It's ``different than,'' and we need all sorts of trained 
workforce.
    Chairman Vitter. Well, first of all, I agree with you 
completely. I'm hoping one of the ways we change that attitude 
and even the playing field, at least here in Louisiana, is when 
in the next few years those folks with the right skills 
training at 21 step into a job at $55,000, and in five years 
they're at $100,000. That can start to change some attitudes 
quickly when people notice. So I think that's part of it, not 
all of it.
    Any other thoughts about changes at the federal level to 
make this work better?
    Ms. Talley. For us, it's the exact same thing that she 
said. It's about changing the mindset so that we can get kids 
into careers that are going to meet their abilities and the 
things that they're interested in. So I think she said it 
perfectly.
    Dr. Bruno. From a four-year perspective, of course, 
rulemaking as I referred to in FAA. We have a technology there 
that has the opportunity to really touch on all levels, as Dr. 
Hanson is dealing with here at Delta, but also at the 
university from the data collection and so forth. There are so 
many opportunities in this new technology.
    Currently, it's slipping away from us simply because you 
can buy them now on the Internet. So you'll find individuals 
who are flying them everywhere. They don't know what they 
should be doing, and we haven't focused that attention. So 
rulemaking is critical.
    I think that we also need to look at the grant process, the 
grant from a research perspective. It becomes quite laborious. 
It engages so many people, so much time consumed, that if 
proposals are done they take months and months and months to be 
evaluated and responses done.
    If we're going to advance technology, advance innovation, 
we have to have a more expedient manner in which research 
dollars, which have been reduced, research dollars have to be 
increased at the federal level and brought back to the 
universities in order to bring us to that next level. We have 
not had significant investments in research since the space 
program. So we need to revisit that and to ascertain what are 
the emerging areas that the country needs, not just the states 
but what does the country need, and allow the universities with 
that skill to move forward on grants to develop those 
innovations and technology issues.
    Chairman Vitter. Great.
    Go ahead.
    Representative Abraham. John, just a quick question for 
you. I know everybody in the room appreciates the economic 
engine for this area.
    Dr. Bruno, you said that there are many STEM applicants and 
maybe not enough resources, and that's actually a good problem 
to have, in my opinion.
    John, I'll fall back on my medical. When we have student 
loans in the medical field, sometimes $200,000, $300,000 when 
we graduate, and if we go to an underserved area, or if we sign 
a contract for six or eight years, that hospital, that company, 
whoever, agrees to help us pay back that loan.
    Is there a dialogue, is there discussion in companies of 
your magnitude that if an applicant with a $150,000 student 
loan comes to you and agrees to--let's say an engineer signs on 
for six or eight years, is there any discussion or thought 
about maybe helping loan repayment?
    Mr. Jones. First of all, my brother is a physician, and he 
actually paid off his loan in Columbia, Louisiana.
    Representative Abraham. Good deal. I paid mine off.
    Mr. Jones. So I understand that part of it.
    We have not, to my knowledge--I'll check with our HR 
Department, but to my knowledge we have not had to broach that 
issue yet. I guess, at best, we would hope that the salary and 
benefits we pay would help them pay down that loan faster, 
because we do pay a little bit above average.
    But I think those are the types of questions that are 
surfacing, to be honest with you. We are getting questions like 
that from individuals because the debt load is so much higher 
than when I went to school. So I'm thinking that the WISE 
program actually also--it's not a perfect corollary, but that 
also got us thinking about how we use our budget in the company 
to actually get the type of people that we need.
    So I think it's really just a question at this point, but 
as we keep getting deeper into the education process I'm 
thinking that's something we will have to deal with going 
forward.
    Representative Abraham. Okay. Thank you.
    Dr. Hanson. I had a comment about that.
    Chairman Vitter. Sure.
    Dr. Hanson. Just along those lines, and it may be something 
that could be addressed at the federal level, and certainly at 
the state level. Many states that I have had the opportunity to 
serve in have engaged in loan forgiveness programs on the state 
level for high-demand jobs. For example, when I was in Arizona, 
the nursing. If you got a nursing loan to go to school, you had 
to sign a promissory type situation where you would agree to 
stay in the state and work for a certain number of years, and a 
percentage of that loan would be forgiven every year. But it 
was to grow your own, so to speak, what was needed in the 
state, and that might be something that would fit well with 
aligning the things that we're doing with Jump Start and WISE 
that would affect both the community and technical colleges as 
well as the university for those programs where we have folks 
that really we need to train them for this State, but there's 
an incentive then to keep them in the State.
    Chairman Vitter. Right, absolutely.
    Dana, let me follow up. You talked about Jump Start, which 
obviously is a very important initiative that goes directly to 
these issues. I've seen it very developed really being 
implemented aggressively in some systems and not in others.
    How do we really sort of put it on steroids and accelerate 
it state-wide?
    Ms. Talley. And I've seen that as well. We have some 
districts in part of the State that have already been doing 
career ed really well for a long time, and other districts that 
have not really had any kids on the career diploma route prior 
to Jump Start.
    I think what I am seeing--and I just can really speak to 
the 14-plus Lincoln districts that I work with, and George is 
here today. I am seeing a real level of energy with the folks 
at the district level who understand what this can mean for 
kids and how this can totally change whether or not they even 
stay in school. We know if they don't stay in school, they have 
really no chance.
    So what we're trying to do is really now dig into the 
logistics of what pathways would these kids be interested in, 
what courses should they take, what credentials can they 
potentially earn, and I am actually seeing--like if you had 
asked me six months ago about the Northeast and where we were, 
I would say, well, we're kind of just slowly moving along.
    I will tell you in the last two months I have seen a 
tremendous boost in energy and attention and movement, and I 
think we're well on our way. I think we are well on our way, 
and I see George is shaking her head. I think we're continuing 
to learn from other districts that are more advanced in terms 
of where they are here, and our folks are willing to do that. 
So I think we're in good shape.
    Chairman Vitter. Great, great.
    Ralph.
    Representative Abraham. When Senator Vitter and I and the 
rest of the Louisiana delegation talk about mega-sites, we're 
fortunate to have several here in Louisiana. The companies are 
always asking the elephant-in-the-room question about technical 
labor. They are not seeing it, and sometimes that's a hindrance 
to bring in the Volvos, the big companies here, because there 
is a limited technical labor force.
    I guess the question is, is there a mechanism that we can 
reach out to those companies individually and market what we 
have here in the State? We have just a wonderful group of 
technical people that are very skilled, but I don't think we 
have done well enough to market our skilled labor. Just 
thoughts on that?
    Dr. Hanson. I've been here two years, so I still have the, 
I guess, opportunity to sometimes look from the outside in. 
What I think we have here in Louisiana that people don't always 
understand--and I'm not just saying this because you're all 
sitting in the room--is the caliber of people that live in 
Northeast Louisiana, their work ethic, their sense of pride and 
their character.
    You may not like and sometimes think you don't have 
everything you should have, but this is phenomenal, this whole 
culture that we have in this part of the State. I've been other 
places.
    So for me, again, looking from the outside in, there are so 
many riches in the State, and particularly Northeast Louisiana, 
because that's where I like to be. But I sometimes think that 
we may not do a good job of presenting ourselves as who we are 
and what we are, the cohesion that we do have and the sense of 
pride that we have here.
    Representative Abraham. Can we help you do that on the 
federal level? That's what we're asking. We want to help.
    Dr. Hanson. Right. But I use that as a preface because I 
think there are a lot of other things that need to be met 
immediately in terms of that technical workforce that you may 
need from the two-year perspective. There are so many folks, 
particularly in Northeast Louisiana, who have not, for whatever 
reason--life happened, and they didn't get that high school 
degree, and they can't take that first step, and they can't 
qualify for federal loans because they didn't get the high 
school.
    There's the piece of the culture of this area, of the 
people that live here, their strengths. At the same time, we 
have a lot of socio-economic challenges in this area. So to get 
them to that next level, what we can do at the federal level 
from my perspective is to incentivize those short-term 
trainings to allow folks to bring back the ability of benefit 
testing that would allow someone who can demonstrate that they 
have the ability to benefit from education, they can get into 
school even without that high school equivalency, things like 
that.
    I think we have so much, and we sometimes miss that 
pathway.
    I don't know if I answered your question or not.
    Representative Abraham. It helps.
    Yes, John.
    Mr. Jones. Representative Abraham, as some people in the 
room know, we are leading an effort to get the community ready 
for what's coming in terms of not only the employees but the 
800 or so spouses that are coming with them who need jobs as 
well.
    Representative Abraham. That's right.
    Mr. Jones. So we see at some point we could have a lot more 
people looking for jobs, skilled or otherwise.
    But some of the thoughts that we've had, even in the 
education area--and again, we're learning as we go from the 
people we're trying to recruit. We're getting direct feedback 
as to why they didn't come or why they did come, and we've even 
talked about the Web sites of the schools in the parishes and 
the city.
    My view of them a year ago is we were really talking to 
people in Ouachita Parish in terms of how we presented those 
Web sites and what the schools offered, and now we actually 
have people clicking on those Web sites from all over the world 
to check in to see if they've got these programs you're talking 
about. So we really need to kind of learn to re-market 
ourselves. It's a global society.
    But little things like that, how we look at ourselves and 
what we have to offer, we really need to start thinking about 
who we are communicating with, and then adapt our messages and 
our marketing, whatever it may be, to those audiences. The 
Volvo CEO may be clicking on northeast Louisiana to find out 
more about us.
    Representative Abraham. That's right. Okay. Thank you.
    Dr. Bruno. I think Louisiana has done an amazing job 
selling our State from an economic development perspective. As 
we look around, we see the evolution of the workforce that's 
transpiring now with IBM, CSC and, of course, CenturyLink. But 
it's throughout the State, in New Orleans with GE and different 
areas.
    If you look around the country, the areas that have 
sustained the least variation in economic progress have been 
those that have been focused around great educational systems. 
People talk about Austin, Texas. Austin was a well-educated 
area before it grew. Businesses want workforce before they 
invest their dollars. In chats with IBM in the last several 
weeks, they want to employ 400 people, of which I think 70 or 
80 percent will be new graduates.
    Just to give you a perspective, ULM, Louisiana Tech and 
Grambling produce less than 100 graduates a year in those 
fields. So we're already behind. So we're a little bit out of 
sync. We've sold a product that we've not yet made, and if 
we're going to grow and recruit the Volvos and more technology 
firms and so forth--because I think John has seen it. I think 
CenturyLink has seen--four years ago or five years ago, 
CenturyLink was pretty much the only game in town for certain 
positions. Now as you've added IBM and CSC and a firm in 
Lafayette and General Electric down in New Orleans, the demand 
for those graduates has gone through the roof, which has forced 
them to now look internationally and nationally for employees.
    Education has got to be the center, and it starts at our K-
12. They have got to prepare those students for community 
colleges. They've got to prepare them for four-year schools. 
They've got to prepare them for the technical colleges. And the 
more we can educate our population, the more it will grow on 
itself.
    I was the first person in my family, both father's and 
mother's side, to get a college degree. But with them, there 
was no doubt, they wanted better for their children. We have to 
instill that. We have to change the culture. I'm not sure quite 
how to do it, but it begins in that K-12. It begins in K-4. We 
have to get them reading. We have to be able to accept students 
at the four-year programs that can do math, that can read and 
write, that have mastered the English language in writing and 
speaking.
    The community colleges are in place. We turned down 400 
freshman applications this year at ULM. Our freshman class is 
less than 1,400. So almost over a third were turned down 
because they did not meet the admissions standards. So just 
think, if ULM could have accepted 400 more students, what that 
could have done to this entire community. I'm sure Dr. Hanson 
would have loved to have accepted 400 more in her program.
    Dr. Hanson. We did.
    [Laughter.]
    Dr. Bruno. That's good, because if we have more high school 
degreed students who are prepared, they move on to the 
community colleges or four-year schools.
    That workforce that we're talking about is going to evolve, 
but it has to start today. We have to get funds into our 
programs, wherever they come from--the state, local, federal--
because just this week I lost three math faculty, and I can't 
recruit because they don't want to come to Louisiana because of 
budget issues. They don't want to come because of 
uncertainties, and pay. We're paying significantly less than 
competitive states.
    I told someone yesterday I know of a dean in one of our 
Louisiana universities that just left to go to Mississippi. 
Now, when we begin to lose people to Mississippi----
    [Laughter.]
    Representative Abraham. It's bad, it's bad.
    Dr. Bruno [continuing]. It should be a clarion call that we 
have to do something.
    So I appreciate what you all are trying to do, but I'm not 
sure federally how we can facilitate that other than assistance 
for students to pursue higher ed. But from a State level, which 
you all certainly have some influence on, it's important that 
we focus on that and try to make sure that we stabilize these 
budgets and give us more resources to meet those demands.
    Chairman Vitter. Absolutely.
    Dr. Hanson.
    Dr. Hanson. Just to piggyback on what you said, Nick, and 
you correct me if I'm wrong. We've had this conversation. I'm 
also a first-generation college graduate in my family. My 
family was in business. But in any case, we've often had the 
conversation about we just need that generation that has gone 
to college or is thinking about sending their kids to college, 
and then that next generation they're going to be coming in 
droves, whether they're going to a two-year or a four-year. 
It's going to be more of the orientation.
    But it begins, for me, as I said before, with northeast 
Louisiana. Despite the riches, we have a lot of folks that have 
economic challenges, and they have educational attainment 
challenges.
    So we've got to figure out a way to meet that need to 
create the pipeline so that they can go in through high school 
and they can go to the community college, they can go on to the 
university if that is their goal, whatever we can do to make 
that fluid.
    Chairman Vitter. Right.
    Okay, we're going to wrap up. I want to start to wrap up by 
thanking our great witnesses. They are obviously the heart and 
soul----
    [Applause.]
    They were the heart and soul of our discussion on this 
topic today. Even more importantly, they're doing great work in 
this vital area. So, thanks to all of you.
    Dr. Hanson, thanks in particular for hosting us here at 
Louisiana Delta Community College. This was the perfect setting 
both in terms of the great facility and in terms of being at a 
center for this sort of training.
    I also want to thank my great colleague, Ralph Abraham.
    Ralph, thanks for joining us.
    [Applause.]
    Chairman Vitter. Appreciate it.
    And thanks to all of you for coming out.
    As you know, I'm in this part of the State, like in every 
part of the State, on a real regular basis with different 
forums and town halls. So please continue to come out to those; 
and in-between them, don't hesitate to call, email, write with 
comments, concerns and suggestions.
    You have a handout, and on that handout there's a blue 
column on the left-hand side. That's all of my contact 
information. That includes our Monroe office. That includes our 
Web site, which has easy email access. So please keep that 
handy.
    But thanks for coming out today. Thank you very much.
    [Applause.]
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]
  

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
